Certificate of Service, per Rule 29
All parties required to be served have been served, in good faith conformance
with all Rules.
Luke Rossignol
454 Main Street - P.O. Box 782
Presque Isle, Maine, 04769
Telephone: (207) 764-3124
The required copies were sent to the above because he is the counsel of record
for all of the plaintiffs/respondents.
Three paper copies of the Petition for Writ of Certiorari, prepared under rule
33.2, have been sent to his office per the US Postal Service, postage prepaid,
by priority mail. These copies were sent on April 7, 2021.
I certify under penalty of perjury that the foregoing is true and correct.

'ptcvKSa)1

Executed on:

a//V

Paul Ballerstein
I certify under penalty of perjury that the foregoing is true and correct.

Mil

r Executed on:

Goldie Ballerstein
In order for their signature above to be notarized, personally there appeared
before me Goldie Ballerstein, and made affirmations that their signature was
made as a free act under their own free will.
Executed on:.
Signature

fi/yy&i faradit>
Printed Name

BROOKE E PARADIS
Notary Public-Maine
My Commission Expires
September 17,2026

RECEIVED
APR - 9 2021

